U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                PUBLIC

               RELEASE



            UNITED STATES PATENT
           AND TRADEMARK OFFICE
           Search System Problems Being
            Addressed, but Improvements
               Needed for Future Systems
           Inspection Report No. OSE-12679/March 2001




                           Office of Systems Evaluation

U.S. Department of Commerce                                                           Final Inspection Report OSE-12679

Office of Inspector General                                                                                  March 2001



                                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


I.	       Management Has Addressed Many Problems Effectively . . . . . . . . . . . . . . . . . . . . . . . . . 7


II.	      Decision Authorities Need to Be More Involved 

          and Have Better Progress Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          A.	    Decision Authorities Need to Approve the 

                 Completion of All System Life-cycle Phases . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          B.	    Decision Authorities Need Quantitative Information 

                 to Assess Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          C.	    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          D.	    USPTO Response and OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


III.	     System Requirements Need to Be Fully Specified . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

          A.	   Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          B.	   USPTO Response and OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


IV.	      Acceptance Testing Needs to Be Improved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          A.	   Formal Qualification Testing Needs to Be Improved . . . . . . . . . . . . . . . . . . . . . 14

          B.	   Beta Testing Needs to Be Improved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

          C.	   Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

          D.	   USPTO Response and OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


V.	       Communication with End Users Needs to Be Improved . . . . . . . . . . . . . . . . . . . . . . . . . 16

          A.	  Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

          B.	  USPTO Response and OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

U.S. Department of Commerce                                                     Final Inspection Report OSE-12679

Office of Inspector General                                                                            March 2001



VI.	   Users’ Proficiency Needs to Be Ensured 

              Before Systems Become Operational . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

       A.     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

       B.     USPTO Response and OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


APPENDIX: USPTO’s Response to the Draft Report
U.S. Department of Commerce                                   Final Inspection Report OSE-12679

Office of Inspector General                                                          March 2001


                                  EXECUTIVE SUMMARY

Patent examiners determine the uniqueness of a submitted patent by searching previously granted
U.S. and foreign patents and relevant non-patent literature, such as technical journals,
collectively called “prior art.” Before the advent of automated searching, examiners searched
only paper patents to determine uniqueness. Since the U.S. Patent and Trademark Office
(USPTO) introduced its first patent search system in 1986, examiners have increasingly relied on
automated systems to search prior art. The objective of automated searching is to improve patent
quality and maintain examiner productivity as the volume of patent filings increases.

In 1994, USPTO decided to replace its primary search system, Messenger, because the
technology was becoming obsolete and capacity limitations were making it difficult to support
the needs of the rapidly growing patent examining corps. USPTO also concluded that making
Messenger year 2000 compliant would be uneconomical. Consequently, USPTO decided to
allow the license for Messenger to expire and remove the system from operations by September
30, 1999. Thus, the new search system had to be ready to support operations at that time. The
Patent Commissioner and USPTO’s Chief Information Officer (CIO) were the designated
“decision authorities” for the search system program, with responsibility for monitoring progress
and approving key decisions.

The objectives of this evaluation were to assess the development and operation of USPTO’s new
search system to (1) determine whether it is adequately supporting patent application processing
and (2) identify lessons learned that can be applied to future system programs.

The firm deadline, coupled with schedule delays, put a great deal of pressure on the program and
contributed to the problems we found. To help ensure a smooth transition, a full year of parallel
operations was planned before Messenger was to be discontinued. However, because of delays,
the new system was not fully deployed until the end of August 1999, leaving only one month for
parallel operations. When it began operating, the system performed poorly, providing slow
response times and crashing frequently, causing examiners to lose work and time and making it
more difficult for them to meet their production quotas. Compounding these problems was the
fact that examiners were not adequately trained on the new system.

We found that USPTO management acted quickly to resolve many of these problems. Actions
included fixing most of the system’s slow response time and instability problems, relaxing
examiners’ work rules to mitigate the effect of the problems on their production rates, and
increasing communications with examiners. The new search system’s performance has
improved, and it has largely fulfilled its primary goal of overcoming Messenger’s limitations.
(See page 7.)



                                                i
U.S. Department of Commerce                                    Final Inspection Report OSE-12679
Office of Inspector General                                                           March 2001

At the same time, we identified the following improvements that should be applied to future
systems development efforts:

•	     Decision authorities need to be more involved and have better progress information.
       As the decision authorities, the Commissioner for Patents and the CIO were responsible
       for program monitoring and signing off on key decisions at the end of certain life-cycle
       phases. Although the decision authorities were monitoring progress, they were not
       involved in some key decisions and did not have the information they needed to
       effectively assess progress and risks. Consequently, they missed opportunities to
       intervene to mitigate problems. USPTO should strengthen the role of the decision
       authorities at the end of each system life-cycle phase and provide them with quantitative
       information about program progress so that they can better manage major information
       systems programs. (See page 8.)

•	     System requirements need to be fully specified. Two critical requirements were not
       adequately addressed in the requirements specification for the new search system. Text
       search response time was not fully specified, and stability requirements were not
       specified at all. Because specifications are the basis for system design, development,
       testing, and acceptance, we believe that the incomplete specifications contributed to the
       system’s slow response times and frequent crashes. USPTO should strengthen its process
       for defining and documenting requirements to ensure that all requirements are included
       and fully delineated in requirements specifications. (See page 12.)

•	     Acceptance testing needs to be improved. USPTO conducted a series of tests to
       determine if the new search system was ready to be accepted and placed into operations,
       but significant stability and response time problems were overlooked. USPTO should
       strengthen its acceptance testing procedures in order to improve its ability to field systems
       that are ready for operations. (See page 13.)

•	     Communication with end users needs to be improved. Although some examiners
       participated in some system life-cycle activities, many of them stated that they were not
       adequately involved in the system development process and expressed dissatisfaction
       with the new system. We believe that the examiners’ dissatisfaction stems from
       inadequate communications with the program manager and developers and lack of a
       significant, formalized role. USPTO should involve the examiners throughout the life-
       cycle and formally define and document their roles in order to increase the likelihood that
       their needs and expectations will be met when a system is delivered. (See page 16.)

•	     Users’ proficiency needs to be ensured before systems become operational. Although
       schedule delays prevented training of the examiners on the new search system from being
       completed, USPTO believed that the examiners were proficient enough to use it.

                                                ii
U.S. Department of Commerce                                   Final Inspection Report OSE-12679

Office of Inspector General                                                          March 2001


       However, training proved to be insufficient, and examiners had difficulty using the
       system. USPTO should evaluate the proficiency of examiners before new systems are
       placed into operations and adjust training accordingly. (See page 17.)




In USPTO’s response to our draft report, the Acting Under Secretary of Commerce for
Intellectual Property and Acting Director of the United States Patent and Trademark Office
expressed his appreciation for the thoroughness of our review and indicated that many of our
recommendations will be applied to future system programs. USPTO concurred with our
observations and 10 of our 12 recommendations, and has already begun implementing many of
them.

Specifically, USPTO has started making substantive changes to its system life-cycle management
methodology. These actions include (1) developing a life-cycle metrics program for evaluating
program progress and system quality; (2) changing requirements development procedures to
improve the quality of requirements specifications; (3) strengthening test procedures by making
formal qualification testing more realistic, preparing new beta test guidance for end users, and
using quality metrics to evaluate system products before accepting them; (4) increasing end-
users’ involvement early and throughout the system life-cycle; and (5) providing additional
opportunities for end user training. These actions should lower system development costs,
improve system quality, and promote end user acceptance of new systems.

The two recommendations that USPTO disagreed with concerned the role of the program
decision authorities. USPTO states that the CIO and program sponsor are adequately involved in
system programs because they are regularly briefed by their program managers and programs are
discussed at quarterly agency-wide business unit reviews. However, we continue to believe that
the CIO and program sponsor should be required to approve and should have the accountability
associated with signing off on the completion of each life-cycle phase of major information
systems. They should have this formal role because they are the only officials with the authority
to make significant changes to major program commitments, such as cost, schedule, and high-
level requirements. Moreover, federal guidance requires decision authorities to make key life-
cycle decisions for major information system programs. Therefore, we reaffirm our
recommendations.

USPTO’s full response is included as the Appendix to this report.




                                               iii
U.S. Department of Commerce                                    Final Inspection Report OSE-12679

Office of Inspector General                                                           March 2001


                                        BACKGROUND


The mission of the United States Patent and Trademark Office (USPTO) is to promote economic
progress by administering patent and trademark laws and advising the executive branch on
intellectual property protection. A patent is a grant given by the U.S. government to an inventor
that secures, for a limited time, his or her exclusive right to make, use, or sell the invention in
exchange for disclosing a description of the invention.

Automated Searching

For an invention to be patented, it must be new, useful, and not obvious. Patent examiners
determine the uniqueness of a submitted patent by searching previously granted U.S. and foreign
patents and relevant non-patent literature, such as technical journals, collectively called “prior
art.” Previously, examiners searched only paper patents, filed in cabinets called “shoe boxes,” to
determine patent uniqueness. However, since the introduction of the patent search system in
1986, examiners have relied increasingly on automation to search prior art.

Before the new search system was introduced, examiners used Messenger, an automated search
system licensed from the Chemical Abstract Service. Messenger searched the U.S. patent
database, which contains about 2.5 million U.S. patents granted from 1971 to the present.
Examiners located patents of interest by entering a series of keywords usually using their desktop
computer. Messenger, which ran on a mainframe computer, would then search its database to
find patents that contained the keywords and return them for viewing. The objective of
automated searching was to improve patent quality and maintain examiner productivity as the
volume of patent filings increased.

In 1994, USPTO concluded that it would be more economical and efficient to meet the growing
search needs of the patent business with newer technology and decided to replace Messenger.
Messenger was limited to 200 users logged on at the same time and could not support the rapidly
growing patent examining corps without expensive upgrades. Also, because Messenger was
built from older, proprietary technology, it was expensive and time consuming to install
additional prior art databases or integrate Messenger with newer patent systems. Another reason
USPTO gave for replacing Messenger was that it was uneconomical to make it year 2000
compliant.

Acquisition and Development Approach

USPTO follows a standard life-cycle management (LCM) methodology that it developed for
acquiring and developing information systems. The LCM methodology defines organizational
responsibilities and procedures for moving a system through a series of life-cycle phases. Table
1 summarizes the purpose of each phase. The program sponsor and USPTO’s Chief Information
Officer (CIO) work closely in a partnership and are the “decision authorities” for the program.

                                                 1

U.S. Department of Commerce                                               Final Inspection Report OSE-12679
Office of Inspector General                                                                      March 2001

They are responsible for monitoring the program and signing off on key decisions at the end of
certain life-cycle phases. The sponsor identifies business needs, ensures that the system being
developed meets those needs, and provides resources for the program. The CIO determines how
best to use information technology to fulfill the identified business needs and is responsible for
the purchase, development, and integration of the system. The sponsor for the new search system
program is the Commissioner for Patents. The Search and Information Resources
Administration (SIRA) in the Patent Commissioner’s office manages the search system program.

                                           Table 1

                       USPTO System Life-Cycle Phases (Before Operations)


      Phase                   Purpose
      Initiation              Identify business need for the information technology program
      Concept                 Investigate alternative implementation approaches and choose one
      Detailed analysis       Translate requirements into a system design
      Development             Refine design and code, integrate, and test system
      Deployment              Prepare end users and logistics for operations


The New Search System

The new search system consists of four components in a client-server arrangement (see
Figure 1).1 The two search system clients, called EAST and WEST, reside on the examiner’s or
other end user’s desktop computer. The clients are connected via USPTO’s in-house network to
a server computer on which the patent text search software package, called BRS/Search, resides.
The server is connected to the U.S. patents and other prior art databases, which the end user can
search, as well as to the patent image server system, called PIRS, which is used to retrieve full
images of patents. BRS searches and returns the textual portions of patents and passes images
retrieved by PIRS to EAST and WEST.




        1
          Typically, a client-server system is composed of client software running on desktop computers that issue
requests to a more powerful server computer that is dedicated to providing a particular service to clients (e.g.,
database or printer services).

                                                         2
U.S. Department of Commerce                                         Final Inspection Report OSE-12679

Office of Inspector General                                                                March 2001


                                        Figure 1
                      USPTO New Search System - Client-Server Diagram


                EAST or WEST
                                                                              Text
                                                                           Databases


                                         BRS/
                                        Search
                                                         PIRS

                                                                            Image
                                                                           Database



EAST, the Examiners Automated Search Tool, has a Microsoft Windows style user interface, is
highly customizable, and has better image retrieval performance. WEST, the Web-based
Examiner Search Tool, has a simpler web browser style user interface and is easier to upgrade.
BRS/Search, the Bibliographic Retrieval System, is a commercial off-the-shelf text search
software package licensed from Dataware Technologies. PIRS, the Patent Image Retrieval
System, is a component of the search system that was built as part of another information
technology program. EAST and WEST replace old client software that ran on examiners’
desktop computers. BRS/Search replaces the Messenger search system that resided on the
mainframe computer. EAST has become the primary system client used by the examining
corps.2

New Search System Life-cycle

In 1995, the new search system first appeared in USPTO’s five-year Strategic Information
Technology Plan, showing full deployment by FY 2001. In July 1997, BRS/Search was selected
to replace Messenger. In that same year, USPTO decided not to make Messenger year 2000
compliant and to allow the licenses for Messenger and its mainframe computer to expire at the
end of FY 1999. This decision shortened the schedule and established a firm deadline for when
the new search system would have to be ready for operations.

The shortened schedule and firm deadline, coupled with schedule delays, put a great deal of
pressure on the program and contributed to the problems we found. According to the CIO, the


        2
         In March 2000, over 1,000 more examiners used EAST than WEST (2821 versus 1795) and five times as
many search queries were performed on EAST than WEST (767,859 versus 148,294).

                                                    3
U.S. Department of Commerce                                   Final Inspection Report OSE-12679
Office of Inspector General                                                          March 2001

program began late because the General Services Administration had temporarily suspended
USPTO’s procurement of system development and maintenance services. When USPTO
eventually procured these services, the contractors were slow to bring in qualified personnel.
Then, because the start of user pilot testing of BRS and the WEST client was delayed by four
months to November 1999, only 10 months remained for the critical system development
activities of debugging BRS and integrating and testing it with the EAST client.

Because the new search system was complex, USPTO planned to operate it in parallel with
Messenger for one year. This time would be used to fix problems and let the examiners become
proficient with the new system while Messenger was available as a backup. BRS with the WEST
client was deployed to the entire examining corps by the end of June 1999 to allow examiners to
become familiar with BRS; however, examiners were reluctant to stop using Messenger and start
using WEST and BRS. Final testing of EAST and BRS was not completed until the end of July
1999, and the system was not fully deployed until the end of August. This left only one month for
examiners to become familiar with EAST and BRS before Messenger was shut off.

The deadline for shutting off Messenger was extended from September 30 to October 9 so that
examiners could complete their end-of-year activities. When Messenger was shut off on October
9, EAST and BRS became the primary operational system. Another release of EAST was put
into operations on October 12 to fix stability and other problems found during testing and
deployment.

Operational Problems

Although USPTO improved system speed and performance during development, the system
performed poorly when it went into operations. Initially, the average text search response time
for the new system was 51 seconds, three times longer than Messenger’s 17 seconds for FY
1999. Also, BRS was very slow in responding to some typically used search queries, taking
minutes rather than seconds. In addition, the system had operational problems, especially
frequent crashes, causing examiners to lose work and time and making it more difficult for them
to meet their production quotas. As a result, calls to the help desk almost doubled.
Compounding these problems was the fact that examiners were unfamiliar with the system.

Many examiners relied on automated searching, but the new search system was not meeting their
needs. Some examiners were so frustrated that they protested to the USPTO Commissioner and
the Congress. Despite the abundant system problems, USPTO maintains that its statistical data
shows that examiner productivity did not suffer: examiners were processing patents at the same
rate as a year earlier. However, any impact these problems may have had on the quality of patent
examinations is difficult to determine.




                                                4

U.S. Department of Commerce                                Final Inspection Report OSE-12679
Office of Inspector General                                                       March 2001

USPTO Response and OIG Comments

We incorporated USPTO’s clarifications about the capabilities of EAST and WEST into the
background section of our report. However, we do not agree with USPTO that deploying WEST
1.0 and BRS with the Derwent database in August 1998 partially achieved the risk mitigation
goal of having one year of new search system operations before Messenger had to be shut off.
The WEST-BRS system deployed in 1998 only partially resembled the new search system and
was seldom used. The WEST-BRS system that was to become part of the new search system
was deployed much later, in June 1999. Unfortunately this system was not heavily used, and
EAST-BRS was not deployed until the end of August 1999, leaving only one month of operation
before Messenger had to be shut off.




                                             5

U.S. Department of Commerce                                    Final Inspection Report OSE-12679

Office of Inspector General                                                           March 2001



                      OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this evaluation were to assess the development and operations of USPTO’s
new search system to (1) determine whether it is adequately supporting patent application
processing and (2) identify lessons learned that can be applied to future system programs.

Our review methodology included interviewing USPTO employees, reviewing documentation,
and participating in system demonstrations. We interviewed patent examiners, including Patent
Office Professional Association (POPA) representatives, supervisory examiners, search system
trainers, search system program and line managers, and the executives involved in the program:
the Patent Commissioner, the Administrator of SIRA, and the CIO. We reviewed many
documents, including USPTO’s five-year Strategic Information Technology Plans; system
documentation, such as system specifications, training plans, and test plans and reports; life-cycle
meeting minutes; system performance statistics; help desk logs; Patent Business Office
memorandums; and e-mail correspondence. We observed a demonstration of the new search
system and also participated in a hands-on demonstration.

Our fieldwork was conducted from February through September 2000. Although USPTO started
considering replacing the old search system in the early 1990s, our work looked at activities that
took place between July 1995 and July 2000. Our evaluation focused on EAST, the primary
client used by the examining corps, and BRS, the replacement for Messenger. Although we
referred to USPTO’s system life-cycle management methodology, evaluating it was beyond the
scope of this inspection. Before presenting our findings and recommendations at an exit
conference with USPTO on September 12, 2000, we discussed this information with the
Commissioner for Patents, the SIRA Administrator, the CIO, and the program managers, who
agreed with most of our recommendations and have already begun to implement them.

Our evaluation was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency, and was performed under the authority of
the Inspector General Act of 1978, as amended, and Department Organization Order 10-13, dated
May 22, 1980, as amended.




                                                 6

U.S. Department of Commerce                                  Final Inspection Report OSE-12679

Office of Inspector General                                                         March 2001



                         FINDINGS AND RECOMMENDATIONS

I.     Management Has Addressed Many Problems Effectively

USPTO management has resolved most of the problems caused by the introduction of the EAST
and BRS system. Actions taken included fixing most of the system’s slow response time and
instability problems, relaxing examiners’ work rules so that the system did not adversely affect
their production rates, and increasing communications with examiners and POPA. USPTO’s
indicators show that the new search system’s performance has improved and that it has largely
fulfilled its goal of overcoming Messenger’s limitations.

USPTO management acted quickly to fix response and stability problems with the new search
system. One month after the system went into stand-alone operations, USPTO was able to
replace the BRS/Search server computer, doubling its computing power and increasing memory
size, by diverting an order for a larger computer placed by the Office of Trademarks. By the end
of November 1999, response time was further improved by adding more disk storage and
reducing bottlenecks to accessing the prior art databases. Also, by May 2000, USPTO released
four software enhancements to EAST and doubled the memory size of the client desktop
computer to reduce the number of system crashes.

USPTO management also worked with POPA to ease the impact of system problems on
examiners’ productivity and performance ratings. In November 1999, charge codes were added
to make it easier for examiners to charge for time lost due to system problems. USPTO also
planned to adjust supervisors’ production goals at the end of the fiscal year so that their
performance ratings would not be adversely affected when examiners charged to these codes. To
improve system performance, USPTO extended the hours during which examiners could work
and increased compensatory time and credit hours to shift use of the system away from peak
hours (9:30 a.m. to 3:00 p.m.). Also, USPTO developed new training courses and increased
examiner training time from 8 to 20 hours.

Management also increased communications with POPA in order to better elicit examiners’
concerns about the new search system. In November 1999, an Automation Task Force was
formed to give examiners and their supervisors an opportunity to discuss problems directly with
program managers and system developers. The task force effectively identified such issues as the
need for extended work hours. In February 2000, USPTO and POPA formally established a
Search Tools and Automation Partnership Working Group to obtain examiners’ input about the
search system and other patent processing systems and to develop a process for their involvement
in system programs.

The new search system program was complex, and the system experienced significant problems
when it went into operations. However, USPTO has recovered from most of these problems, and

                                               7

U.S. Department of Commerce                                              Final Inspection Report OSE-12679
Office of Inspector General                                                                     March 2001

the new system appears to be adequately supporting patent processing. USPTO’s statistics show
that EAST and BRS are meeting the CIO’s service commitment of responding to 80 percent of
the search queries in less than 30 seconds. Average text search response time has been reduced
from approximately 50 seconds in November 1999 to less than 20 seconds in December 1999.3
In addition, examiner complaints about the system have subsided. By January 2000, help desk
calls due to problems with the new search system had fallen by 86 percent, and examiners’
complaints are heard much less frequently in on-line chats with the USPTO Commissioner.
Despite these improvements, EAST and BRS have not responded in 30 seconds to some of the
new benchmark search query specified by examiners. Also, the system is not meeting some of
the more demanding response time requirements documented in EAST’s requirements
specification.

The new search system has accomplished its fundamental goal of overcoming the serious
limitations of Messenger. It is routinely supporting up to 500 simultaneous users as compared to
the 200 users that Messenger could accommodate. It is searching more databases and has
integrated text search and patent image retrieval. The system is also year 2000 compliant.
Finally, as a result of the problems encountered on the new search system program, USPTO
management is rethinking how to manage system programs more effectively and increase end
user involvement.

II.	    Decision Authorities Need to Be More Involved
        and Have Better Progress Information

Although the decision authorities were monitoring progress, they were not involved in some key
decisions and did not have the information they needed to effectively assess progress and risks.
Consequently, they missed opportunities to intervene to mitigate problems. USPTO should
strengthen the role of the decision authorities at the end of each system life-cycle phase and
provide them with quantitative information about program progress so that they can better
manage major information systems programs.

Federal guidance for the acquisition of major information systems requires agency decision
authorities to make key life-cycle decisions. Decision authorities are responsible for taking
actions when significant problems arise in fulfilling schedule, cost, or requirement commitments.
USPTO implemented this guidance in its system life-cycle management methodology. The LCM
designates the program sponsor and the CIO as the decision authorities for system programs and



        3
          Because response times for EAST text searches and patent image retrievals are not measured individually,
the actual text response time must be derived from this combined measurement. In December 1999, the average
combined response time was 12.5 seconds. However, USPTO reports that text search response time may be as
much as 50 percent higher, i.e., 18.75 seconds because text searches take much longer than image retrievals.

                                                        8

U.S. Department of Commerce                                   Final Inspection Report OSE-12679
Office of Inspector General                                                          March 2001

makes them responsible for monitoring program progress and making key life-cycle decisions.
As noted, the Commissioner for Patents is the program sponsor.

Decision authority monitoring was particularly critical for the search system because of both its
importance to examiners and its significant complexity and risks. Although examiners are not
required to use automated searching, in FY 1999, three-quarters of them relied on it for
performing their work, an increase of 13 percent from the previous year. Also, session hours
increased by 36 percent. The risks faced by the program were (1) schedule risk, because of the
firm deadline; (2) technical risk, because the new search software had never been implemented in
an environment as demanding as USPTO’s; and (3) user acceptance risk, because the new system
was significantly different from Messenger.

Although the decision authorities monitored the program, they did not foresee the serious
problems the system would have when it went into operations. For example, the Patent
Commissioner did not know that one of the most important features of the new search
system—its ability to respond to search queries at least as fast as Messenger—had not been
confirmed for a realistic number of simultaneous users. Similarly, neither the CIO nor the Patent
Commissioner was aware of the severity of the system’s stability problems until it went into
operations. We believe that the decision authorities did not know about these problems because
they were not adequately involved in making key life-cycle decisions and did not have
quantitative information to assess program progress and risks.

A.	    Decision Authorities Need to Approve the
       Completion of All System Life-cycle Phases

USPTO’s LCM does not require the CIO or the program sponsor to formally approve the
completion of two of the five system life-cycle phases, the detailed analysis phase and the
development phase. However, management information about the results of both of these phases
is critical for determining if the program is progressing as planned and if it can proceed to the
next phase without undue risk. During the detailed analysis phase, requirements are translated
into a system design. By the end of this phase, information is available about how stable the
requirements are and whether they are likely to be implemented within program schedule and
cost commitments. During the development phase, the system is built according to the design
and then tested. By the end of this phase, conclusive information should be available about
whether system requirements have been satisfactorily implemented and whether the system is
ready for deployment to end users.

USPTO’s LCM requires that the CIO and the program sponsor formally approve the completion
of three phases of the system life-cycle, initiation, concept, and deployment. Approvals are
recorded as a signature on system documentation. However, we found that the decision
authorities did not formally approve the completion of some of the phases in the new search
system program. At the end of the concept phase, the CIO and program sponsor are to review the

                                                9

U.S. Department of Commerce                                   Final Inspection Report OSE-12679
Office of Inspector General                                                          March 2001

system boundary document and agree that it reflects a mutual and detailed understanding of
program commitments. At USPTO, program commitments are identified in the system boundary
document and include schedules, costs, high-level system requirements, and special
considerations, such as user acceptance challenges. However, USPTO could not provide
evidence that the decision authorities had signed the system boundary document for either EAST
or the Messenger search software replacement. Similarly, at the end of the deployment phase,
the decision authorities are to review and approve the systems deployment decision paper, which
describes why the system and its logistics are ready for operations. Although a decision paper
was submitted for WEST and BRS, USPTO could not provide evidence that it was formally
approved. Also, no decision paper was submitted or formally approved for EAST.

B.	    Decision Authorities Need Quantitative Information
       to Assess Progress

Reportedly, the decision authorities met weekly with their staffs to discuss program status, as
well as management and technical issues that needed to be resolved, but these discussions did not
focus on assessing progress in meeting program commitments.

Information technology organizations with mature life-cycle processes use quantitative measures,
or metrics, to evaluate progress in achieving program commitments. For example, a measure of
system quality based on the number of errors discovered during testing per lines of system code,
called “fault density,” is a good indicator of the number of errors remaining and whether the
system is ready for operations. Similarly, the number of changes to system requirements during
development, called “requirements volatility,” is an important indicator of whether requirements
are stable and, therefore, whether schedule and cost commitments can be met. Also, progress in
implementing high-level requirements can be tracked by determining how many of their
component requirements have been completed.

If the decision authorities had been using appropriate quantitative measures to assess progress,
they could have foreseen significant problems early enough to resolve them effectively. For
example, if they had been tracking the activities for implementing and testing the high-level
requirement of search system response time, they would have found that an acceptable time had
not been confirmed. They then could have allocated additional resources to complete the task or
relaxed examiner work rules before the new search system went into stand-alone operations. In
general, quantitative measures would provide the decision authorities with a basis for
determining whether each life-cycle phase has been completed; for assessing the likelihood of
meeting cost, schedule, and requirement commitments; and for deciding whether the next
program phase could be started without undue risk.

The search system decision authorities and their staffs have agreed that better information about
program progress, including quantitative measures, would improve their ability to assess and
manage system programs.

                                                10

U.S. Department of Commerce                                   Final Inspection Report OSE-12679
Office of Inspector General                                                          March 2001

C.	    Recommendations

We recommend that the Under Secretary for Intellectual Property and Director of the United
States Patent and Trademark Office direct the CIO, in consultation with the Commissioner for
Patents, Commissioner for Trademarks, Chief Financial Officer, and Chief Administrative
Officer, to revise the LCM as follows, for major information system programs:

1.	    Extend the decision authorities’ responsibilities to reviewing and approving the
       completion of the detailed analysis and development phases.

2.	    Require that quantitative measures be prepared and that the decision authorities review
       them at the end of each life-cycle phase to help evaluate the progress made in achieving
       program commitments, such as cost, schedule, and high-level requirements.

3.	    Require the decision authorities to sign documentation attesting to the successful
       completion of each life-cycle phase.

D.	    USPTO Response and OIG Comments

USPTO concurs with our recommendation to develop life-cycle metrics for evaluating program
progress and system quality. However, it disagrees with our recommendations concerning the
role of the program decision authorities. USPTO states that the CIO and program sponsor are
adequately involved in system programs because they are regularly briefed by their program
managers and programs are discussed at quarterly agency-wide business unit reviews. USPTO
also states that at life-cycle reviews the Technical Review Board, chaired by the deputy CIO and
attended by the CIO’s and sponsor’s program managers, has the authority to approve and sign off
on the completion of life-cycle phases.

However, we continue to believe that the CIO and program sponsor should be required to
approve and should have the accountability associated with signing off on the completion of each
life-cycle phase of major information systems. They should have this formal role because only
they, and not the Technical Review Board, have the authority to make significant changes to
major program commitments, such as cost, schedule, and high-level requirements. Moreover,
decision authorities are required by federal guidance (OMB Circular A-130, Management of
Federal Information Resources) to make key life cycle decisions for major information system
programs. Therefore, we reaffirm our recommendations.

USPTO also took exception to the implication that could be drawn from our report about
decision authorities’ awareness of system stability problems. If USPTO adopts our
recommendations, we believe that any uncertainty about decisions authorities’ awareness of
significant system development and acquisition issues would be avoided.


                                               11

U.S. Department of Commerce                                    Final Inspection Report OSE-12679
Office of Inspector General                                                           March 2001

III.   System Requirements Need to Be Fully Specified

Two critical requirements were not adequately addressed in the requirements specification for the
new search system. Text search response time was not fully specified, and stability requirements
were not specified at all. Because specifications are the basis for system design, development,
testing, and acceptance, we believe that the incomplete specifications contributed to the system’s
slow response times and frequent crashes. USPTO should strengthen its process for defining and
documenting requirements to ensure that all requirements are included and fully delineated in
requirements specifications.

Requirements specifications are fundamental to the system life-cycle process. They identify the
capabilities a system has to provide, and they serve as the basis for system design and
development, as well as for testing and verifying that the system is ready for acceptance. USPTO
developed the search system’s software requirements specifications in accordance with Institute
of Electrical and Electronic Engineers (IEEE) 830 standard, IEEE Recommended Practice for
Software Requirements Specifications. The standard identifies five major categories of
requirements—functional, performance, external interface, design constraints, and other system
attributes—and the details that need to be specified for each category. According to the standard,
the level of detail should be sufficient to design the system and to test that all requirements have
been implemented completely and correctly.

Text search response time and system stability are two critical search system performance
requirements. Examiners depend on fast processing of complex text search queries.
Recognizing the importance of speed, the CIO has explicitly committed to having the search
systems provide examiners with fast response times. The speed of text searches depends on the
workload under which the system is operating. Workload is determined by such factors as the
number of users logged on, the number of simultaneous searches, the complexity of the search
query, and the number of databases searched. Similarly, stability is important because the system
must be continuously available to examiners. System stability, typically called “availability,” is
the degree to which a system or component is operational and accessible when needed.

Although the EAST specification included a text search response time requirement, this
requirement was incomplete because it did not specify the system workload. Specifically, the
response time requirement did not include the anticipated number of users logged on or actively
running searches. Availability was not specified at all in either the EAST or the Messenger
search software replacement specifications. When the system went into operations, two of its
major problems were slow response time and frequent crashes. We believe that response time
and stability would have been better monitored and tested if they had been specified properly.




                                                12

U.S. Department of Commerce                                     Final Inspection Report OSE-12679

Office of Inspector General                                                            March 2001



A.	    Recommendations

We recommend that the Under Secretary for Intellectual Property and Director of the United
States Patent and Trademark Office direct the CIO to:

1.	    Revise the LCM procedures for specifying requirements to ensure that all requirements
       are identified and fully specified according to the categories and level of detail stipulated
       in the IEEE standard.

2.	    Update the new search system requirements specification to include fully specified text
       search response time (including workloads) and system availability.

B.	    USPTO Response and OIG Comments

USPTO concurs with our recommendations and has started implementing them. It has improved
procedures for identifying and specifying system requirements, as well as clarified performance
and availability requirements for the new search system. Specifically, USPTO has added a
Detailed Level Requirements Review to the LCM procedures and plans to update the
Requirements Management Technical Standard and Guideline to more fully address the
requirement categories identified in the IEEE 830 Standard.

IV.	   Acceptance Testing Needs to Be Improved

USPTO conducted a series of tests to determine if the new search system was ready to be
accepted and placed into operations, but significant stability and response time problems, as
discussed previously, were overlooked. USPTO should strengthen its acceptance testing
procedures in order to improve its ability to field systems that are ready for operations.

After a system is integrated and tested by the developers, tests are performed independently of
the developer for the program sponsor and end users to determine if the system is ready to be
accepted for operations. At USPTO, two kinds of acceptance tests are conducted, formal
qualification testing (FQT) and beta testing. The purpose of FQT is to verify that the system
performs according to its documented requirements. The purpose of beta testing is for end users
to determine whether the system meets their needs by exercising the system as it is typically used
in an operational environment, rather than against its written requirement specification, as is
done in FQT. At USPTO, these are usually the last tests performed before the system is deployed
to end users.




                                                13

U.S. Department of Commerce                                    Final Inspection Report OSE-12679
Office of Inspector General                                                           March 2001

A.     Formal Qualification Testing Needs to Be Improved

FQT should be comprehensive—all functional and performance characteristics described in the
system requirements specifications should be tested. Requirements should be tested individually
and in combination. They should be tested for average situations, for situations at the system
boundaries (e.g., for minimum and maximum input values), and for out-of-bounds situations
(“stress testing”). Stress tests are designed to demonstrate what a system’s limitations are and
how it behaves when it fails. It is important that the system is tested under realistic conditions.
For example, system response times should be tested under workloads expected during
operations. Also, examiners can help develop typical search scenarios to test.

The CIO’s quality assurance contractor conducted the FQT for EAST in May 1999. However,
FQT did not reveal the extent of EAST’s problems, leaving many to be found in beta testing and
during operations. FQT identified 20 problems, 3 of which caused the system to crash.
Although 19 of the problems were fixed, beta testing identified five times as many
problems—109 problems, 25 of which caused the system to crash. USPTO issued three releases
of EAST before Messenger was shut off on October 9 to fix problems found during beta testing
and hurriedly issued a fourth release two days later to fix the remaining problems. USPTO
issued three more releases by April 2000 to reduce system stability problems.

FQT was unsuccessful primarily because the system was not tested under realistic conditions and
not stress tested. For example, the test of response time for text searching was conducted with a
workload of 3 simultaneous users, when the system was expected to handle 600. As stated in
Finding III, it is more likely that the system response time would have been tested under realistic
conditions if the response time requirement had been fully specified with its expected workload.
Similarly, USPTO stated that most requirements were tested under average conditions, rather
than at or past their boundaries. The extent of system problems suggests that testing conducted
by the system developer before acceptance testing may also have been inadequate.

B.     Beta Testing Needs to Be Improved

Beta testing is needed because written system requirements do not necessarily capture all
important user needs. At USPTO, beta testing offers the only opportunity for end users to test
the system in its operational environment. According to USPTO guidance, beta tests should be
planned, routine features tested, and results reported at the end of testing. Although the LCM
does not offer guidance on beta test planning, an effective approach would both identify key
requirements to test and allow ad hoc testing. Test reports should summarize the test results,
along with end users’ critiques of the system, including whether they believe the system is ready
for operations. Also, the system should be relatively free of problems so that beta testers can
spend their time verifying that the system provides the functional and performance capabilities
needed to do their jobs without having to deal with inaccurate results or system crashes.


                                                14

U.S. Department of Commerce                                   Final Inspection Report OSE-12679
Office of Inspector General                                                          March 2001

EAST beta testing was conducted for a two-month period between May and July 2000 by 165
testers, including examiners, SIRA personnel, and other users. However, because the system was
not adequately tested during FQT, beta testers encountered many system problems. These
problems hindered end users from fully testing the system and determining whether it met their
needs. USPTO released three versions of the system to fix problems found during beta testing.
Because of the approaching deadline, however, significant problems were not repaired before the
system went into stand-alone operations, including some that caused the system to crash. Also,
the beta test documentation did not draw a conclusion about the testers’ experience with the
system or describe their assessment of its readiness for operations.

C.	    Recommendations

We recommend that the Under Secretary for Intellectual Property and Director of the United
States Patent and Trademark Office direct the CIO to:

1.	    Revise the LCM procedures for Formal Qualification Testing to ensure that
       a.	    End users participate in developing realistic test cases.
       b.	    Systems are tested at and beyond system boundaries (i.e., are stress tested), in
              addition to being tested in average situations.
       c.	    System requirements are tested under realistic conditions.

2.	    Revise the LCM procedures for beta testing to ensure that
       a.	    Beta test plans are prepared that include plans for testing important requirements
              in addition to ad hoc testing.
       b.	    A written end user evaluation of the test is required as one of the determinants of
              the deployment decision.

3.	    Revise the LCM testing procedures to ensure that the adequacy of the testing performed
       by the developer is reviewed before acceptance testing begins.

D.	    USPTO Response and OIG Comments

USPTO concurs with our recommendations and has started implementing them. It is taking steps
to improve test procedures by making formal qualification testing more realistic, preparing new
beta test guidance for end users, and using quality metrics to evaluate system products before
accepting them. USPTO also plans to request funds for obtaining automated tools for testing
system performance.




                                               15

U.S. Department of Commerce                                    Final Inspection Report OSE-12679
Office of Inspector General                                                           March 2001


V.     Communication with End Users Needs to Be Improved

Although some examiners participated in some system life-cycle activities, many of them stated
that they were not adequately involved in the system development process and expressed
dissatisfaction with the new system. We believe that the examiners’ dissatisfaction stems from
inadequate communications with the program manager and developers and lack of a significant,
formalized role. USPTO should involve the examiners throughout the life-cycle and formally
define and document their roles in order to increase the likelihood that their needs and
expectations will be met when a system is delivered.

End user participation is important to the success of major information system programs.
Representatives from the end user community should be part of a joint team consisting of a
program manager, developers, and other stakeholders that participate in the evolution of the
system throughout its life-cycle. End users should meet with other team members to define
requirements, participate in evaluating system prototypes to refine requirements, and assist in
acceptance testing to ensure that the system meets their needs.

Examiners had opportunities to participate in the new search system program. According to the
program manager and CIO staff, examiners were one source of requirements. Moreover, in the
early part of the program, a small group of examiners was selected to evaluate and discuss
commercial off-the-shelf products being considered to replace Messenger. Additional examiner
participation was solicited for system piloting and beta testing. In total, 60 examiners piloted
WEST and BRS, and 90 examiners were part of the beta test group for EAST and BRS.

Despite this participation, the examiners we interviewed stated they were not adequately
involved in the development process and were dissatisfied with the new system when it was
deployed. Examiners stated on numerous occasions—including in comments about EAST beta
testing, in a petition to the USPTO Commissioner, in a letter to the Congress, and in interviews
with our office—that they do not receive feedback about their concerns from USPTO
management. Examiners felt that they did not significantly influence the selection of the
replacement search software and that when they were consulted (e.g., at beta testing), it was too
late in the system life-cycle to have a significant influence.

We believe that the examiners’ dissatisfaction stems from inadequate communications with the
program manager and developers and lack of a significant, formalized role throughout the system
life-cycle. Examiners were not always sufficiently represented in life-cycle activities, and when
they did participate, they saw little evidence that they had influenced the characteristics of the
system. Although user participation throughout the system life-cycle is noted in the LCM, users
are not given a significant role and sometimes are not included when they are supposed to be.



                                                16

U.S. Department of Commerce                                  Final Inspection Report OSE-12679
Office of Inspector General                                                         March 2001

USPTO should strengthen end users’ involvement in system programs, including early in the
system life-cycle so that they have more influence over the end product. As USPTO’s LCM
points out and industry has found, early user involvement increases the likelihood that
requirements accurately reflect end user needs and that end users will embrace the newly
developed system. In response to examiners’ dissatisfaction with the new search system, USPTO
and POPA established the Search Tools and Automation Partnership Working Group Team in
February 2000 to resolve issues associated with automated tools and define a process for
increasing examiner participation in the system life-cycle.

A.	    Recommendations

We recommend that the Under Secretary for Intellectual Property and Director of the United
States Patent and Trademark Office:

1.	    Direct the CIO and Commissioner for Patents to work with examiners to ensure that
       increased examiner involvement continues throughout the search system life-cycle.

2.	    Direct the CIO, the Commissioner for Patents, Commissioner for Trademarks, Chief
       Financial Officer, and Chief Administrative Officer to work with end users to formally
       define and document end users’ increased responsibilities in the life-cycle for major
       information systems.

B.	    USPTO Response and OIG Comments

USPTO concurs with our recommendations and has started implementing them. It stated that
management has offered examiners an expanded role in life-cycle activities in a formal
agreement with POPA. Also, USPTO is considering how to define and formally document an
expanded role for end users from other USPTO units.

VI.	   Users’ Proficiency Needs to Be Ensured
       Before Systems Become Operational

Although schedule delays prevented training of the examiners on the new search system from
being completed, USPTO believed that they were proficient enough to use it. However, training
proved to be insufficient, and examiners had difficulty using the system. USPTO should
evaluate the proficiency of examiners before new systems are placed into operations and adjust
training accordingly.

Although BRS was selected, in part, because it was the most similar to Messenger of the search
systems evaluated, examiners still needed training because the two systems had substantial
differences, especially in user interfaces and processing of search queries. Messenger had a
simple user interface consisting of a single window and a single command entry mode.

                                              17

U.S. Department of Commerce                                    Final Inspection Report OSE-12679
Office of Inspector General                                                           March 2001

Examiners used the keyboard to enter commands and results appeared in the same window right
after the command. However, EAST has a more powerful and more complicated interface based
on Microsoft Windows, which has multiple windows and command entry modes. Commands
are either keyed in or selected with a pointing device (e.g., a mouse) from menus, toolbars, tabs,
and other areas of the desktop computer monitor screen. Results appear in one of three windows
that can be re-sized and moved around the screen.

Examiners also had to learn new search strategies because BRS processes some search queries
differently from Messenger. In some cases, the results returned by BRS and Messenger differed
for identical queries. In other cases, BRS would respond very slowly to search queries examiners
typically used with Messenger. To overcome slow responses, examiners have to narrow the
scope of the query or break long search queries into several smaller queries.

USPTO developed a series of courses for training examiners on EAST and WEST. WEST
training was primarily for learning BRS search strategies, since WEST's web browser-like user
interface was easy to understand. Because EAST had a more complicated user interface, EAST
training was divided into two components, user interface training (including patent image
retrieval) and search strategy training.

EAST and WEST training was supposed to be completed before Messenger was shut off, at the
end of September 1999. However, because of delays in getting WEST and EAST ready and
system problems during training, training for both systems started late and was not completed on
time. WEST training started two months late at the end of June 1999 and was not completed
until November. Also initially, participation in WEST training was low because examiners were
not required to take the course. EAST was also delivered late, delaying the start of training until
August. This delay left little time to fully train the entire examining corps before Messenger was
shut off. Therefore, examiners who relied heavily on patent image retrievals were the first to
receive EAST user interface training. EAST search strategy training did not start until three
months after EAST went into stand-alone operations, and was not completed for another three
months.

Although program managers realized that EAST training could not be completed in time, they
believed that WEST search strategy training might have prepared examiners for using EAST,
since both systems are served by BRS. However, USPTO did not have data to make a more
certain determination of examiners' preparedness for using EAST. After EAST went into
operations, many problems were attributed to users’ lack of familiarity with the system. In
response to this issue, USPTO revamped the training program for EAST and WEST. New
training courses were developed, and examiner training time for both EAST and WEST was
increased from 8 to 20 hours.




                                                18

U.S. Department of Commerce                                    Final Inspection Report OSE-12679
Office of Inspector General                                                           March 2001

As a result of their experience with the new search system, USPTO managers have stated that
they have an increased appreciation for the role of training in making their work force efficient
users of technology and that they plan to allocate more training time in the future.

A.     Recommendations

We recommend that the Under Secretary for Intellectual Property and Director of the United
States Patent and Trademark Office direct the Commissioner for Patents to take the following
actions before a major information system goes into operations:

1.     Ensure that end users have been completely trained.

2.     Ensure that the proficiency of end users has been evaluated.

B.     USPTO Response and OIG Comments

USPTO concurs with our recommendations and has started implementing them. It has expanded
the automation training program and will allow examiners to retake courses without time
penalties. Although the labor unions have expressed concern about assessing the proficiency of
employees, USPTO will explore mechanisms for assessing skill level on new systems before old
systems are retired.




                                                19

